                           Office of Inspector General
                           Legal Services Corporation




Inspector Genera)
Jeffrey E. Schanz

3333 K Street, NW, 3rd Floor
Washington, DC 20007-3558
202.295 .1 660 (p) 202.337. 6616 (f)
www.oig.lsc.gov

        May 6, 2014

        Ms. Janice Chapin
        Executive Director
        Central Jersey Legal Services, Inc.
        317 George Street, Suite 201
        New Brunswick, NJ 08901-2006

        Dear Ms . Chapin :

        Enclosed is the Office of Inspector General's (OIG) final report of our audit on Selected
        Internal Controls at Central Jersey Legal Services , Inc. The OIG reviewed you r
        comments to the draft report. Your comments are included in the final report as
        Appendix II.

        The OIG considers your comments responsive to our recommendations. Recommenda-
        tions 1, 3, and 5 will remain open until the OIG has been notified in writing that the
        applicable written policies have been updated and added to the Administrative Manual
        and all meetings and training to discuss adherence with accounting policies and
        procedures has been completed with CJLS staff. Since the actions implemented have
        fully addressed Recommendations 2, 4, and 6 through 9, we consider them as closed .

        We thank you and your staff for your cooperation and assistance .

        Sincerely,



     ~~;h,fr-
        Inspector General

        Enclosure

        cc:         Legal Services Corporation
                    Jim Sandman , President

                    Lynn Jennings, Vice President
                      for Grants Management


                                                                                    =ILLSC
                                                                                     II   Amu1c:a", (':umo, For Equal Jun<u
    LEGAL SERVICES CORPORATION

    OFFICE OF INSPECTOR GENERAL




   REPORT ON SELECTED INTERNAL
            CONTROLS


CENTRAL JERSEY LEGAL SERVICES, INC.
             RNO 331110




          Report No. AU14-03

              May 2014

           www.oig.lsc.gov
                                          TABLE OF CONTENTS

INTRODUCTION ........................................................................................ 1

BACKGROUND ......................................................................................... 1

OBJECTIVE ............................................................................................... 2

OVERALL EVALUATION ........................................................................... 2

AUDIT FINDINGS ...................................................................................... 3

    Written Policies ..................................................................................... 3
       Recommendation 1 ......................................................................... 4
       Recommendation 2 ......................................................................... 4
       Recommendation 3 ......................................................................... 4

    Contracting ........................................................................................... 4
      Recommendation 4 ......................................................................... 5
      Recommendation 5 ......................................................................... 6
      Recommendation 6 ......................................................................... 6

    Fixed Assets ......................................................................................... 6
       Recommendation 7 ......................................................................... 7
       Recommendation 8 ......................................................................... 7

    Supporting Documentation ................................................................... 7
      Recommendation 9 ......................................................................... 7

SUMMARY OF GRANTEE MANAGEMENT COMMENTS ........................ 8

OIG EVALUATION OF GRANTEE MANAGEMENT COMMENTS ............ 8

APPENDIX I – SCOPE AND METHODOLOGY ..................................... I - 1

APPENDIX II - GRANTEE MANAGEMENT COMMENTS .................... II - 1
                                 INTRODUCTION


The Legal Services Corporation (LSC) Office of Inspector General (OIG) assessed the
adequacy of selected internal controls in place at Central Jersey Legal Services (CJLS
or grantee) related to specific grantee operations and oversight. Audit work was
conducted at the grantee’s administrative office in New Brunswick, NJ and at LSC
headquarters in Washington, DC.

In accordance with the Legal Services Corporation Accounting Guide for LSC
Recipients (2010 Edition) (Accounting Guide), Chapter 3, an LSC grantee “…is required
to establish and maintain adequate accounting records and internal control procedures.”
The Accounting Guide defines internal control as follows:

      [T]he process put in place, managed and maintained by the
      recipient’s board of directors and management, which is designed
      to provide reasonable assurance of achieving the following
      objectives:

      1. safeguarding of assets against unauthorized use or disposition;
      2. reliability of financial information and reporting; and
      3. compliance with regulations and laws that have a direct and
         material effect on the program.

Chapter 3 of the Accounting Guide further provides that each grantee “must rely upon
its own system of internal accounting controls and procedures to address these
concerns” such as preventing defalcations and meeting the complete financial
information needs of its management.


                                  BACKGROUND

CJLS offers legal help in civil (non-criminal) cases for low-income residents of Mercer,
Middlesex and Union Counties. CJLS has offices in Trenton, New Brunswick,
Perth Amboy and Elizabeth. The most common types of cases handled by the grantee
include housing problems, family matters, consumer problems, public benefits and
employment, health and education, and elder law. There are other legal problems with
which they can help.

According to the audited financial statements for the grantee’s fiscal year ended
June 30, 2013, approximately 73 percent of the grantee’s total support funding was
provided by two funding sources: the State of New Jersey and Legal Services
Corporation. CJLS received $1,019,271 from LSC and $2,616,668 from the state. In
addition, the grantee received $1,355,156 from various local and private sources.


                                           1
                                    OBJECTIVE


The overall objective was to assess the adequacy of selected internal controls in place
at the grantee as the controls related to specific grantee operations and oversight,
including program expenditures and fiscal accountability. Specifically, the audit
evaluated selected financial and administrative areas and tested the related controls to
ensure that costs were adequately supported and allowed under the LSC Act and LSC
regulations.

                            OVERALL EVALUATION


Our review noted that the grantee has in place adequate and reliable internal control
processes over disbursements. The test of disbursements noted the transactions
tested were for the most part adequately supported, allowable, and appeared to be
properly allocated to LSC funds.
While many of CJLS’ controls were adequately designed and properly implemented as
the controls related to specific grantee operations and oversight, some controls need to
be strengthened and formalized in writing.

The grantee’s current practices involving derivative income, credit card purchases, and
cost allocations were generally in accordance with the Fundamental Criteria of an
Accounting and Financial Reporting System (Fundamental Criteria) contained in the
Accounting Guide. However, the policies and procedures in these areas need to be
fully documented in writing.

The grantee’s current practices involving soliciting and awarding contracts were not in
accordance with the Fundamental Criteria. During our review, we found that CJLS did
not have documentation justifying the process used to obtain two sole sourced contracts
identified during testing. CJLS also did not have all supporting documentation for
contracts in one centralized location. In addition, the contracting policies and
procedures need to be fully documented in writing.
At the time of our review, we found that the fixed assets purchased by CJLS were not
tagged. The property records also did not contain all information required by the
Accounting Guide, such as the source of funds used, depreciation method and useful
life. Several information columns were included on the property records but were
incomplete, including the check number used to purchase the item, inventory control
numbers and date of acquisition.

Our review of credit card purchases reveals that all supporting documentation was not
centrally filed in one location.



                                           2
Controls over client trust fund accounting were reviewed but not tested. The controls
and processes in place were deemed adequate.

The budget and internal management reporting processes are documented in the
grantee’s administrative manual and appear reasonable and in conformity with the
Fundamental Criteria. There appears to be adequate participation by the Executive
Director, the Controller and the respective Office Managers in the formulation and
approval of the budget. The Internal Management Reports are prepared and distributed
to the appropriate personnel timely in a format that facilitates adequate monitoring of
program financial activity.

                                AUDIT FINDINGS


WRITTEN POLICIES

Operating practices in place for some areas reviewed were not adequately documented
in the grantee’s administrative manual in conformity with the Fundamental Criteria
contained in the LSC Accounting Guide. The CJLS Administrative Procedures Manual
documents the policies and procedures to be followed by CJLS staff in meeting the
objectives and criteria of LSC and its other funding sources. The grantee’s current
practices involving derivative income, credit card purchases, and cost allocations were
generally in accordance with the Fundamental Criteria, contained in the Accounting
Guide. However, the policies and procedures in these areas need to be fully
documented in writing.

The grantee received various forms of derivative income including attorney fees, fees
for service, interest income and other income. The grantee’s practice for recording and
allocating derivative incomes appears to be adequate. The attorneys' fees and fees for
service are allocated based on the percentage of attorneys' time associated with the
respective case in accordance with the regulation. Investment income received is
based on money received from the State of New Jersey and interest earned based on
these funds is allocated to unrestricted funds (operations). Other income mainly
consists of court ordered donations which the grantee allocates to unrestricted funds.
We noted during our review of the CJLS Administrative Procedures Manual, the grantee
does not have documented policies and procedures for recording and allocating
derivative income. Without adequate written policies and procedures in place,
transactions may be initiated and recorded that violate management intentions or
possibly laws and grant restrictions.

CJLS has one credit card account with several authorized users. Discussions held with
the CJLS Financial Manager and tests of disbursements included on credit card
statements for the period of review showed that the grantee has adequate and reliable
internal control processes in place over credit card disbursement processes and
procedures; however, the practices were not documented in their Administrative
Procedures Manual. CJLS staff explained that although the program does not have

                                          3
documented policies and procedures over the use of the corporate card, their practice is
the same as the procurement policies and procedures documented in their
Administrative Procedures Manual. Written policies and procedures serve as a method
of documenting the design of controls and communicating the controls to the staff.
Without adequate written policies and procedures in place, transactions may be initiated
and recorded that violate management intentions, and possibly laws or grant
restrictions.
CJLS gathers different types of information to prepare its cost allocation. The CJLS
grants manager pulls Census information for each office at the beginning of the cost
allocation process to determine what percentage of revenue should be associated with
each office to cover its expenses. The budgeted revenue for each grant, not restricted
to any office (LSC, Treasury, State, IOLTA, etc.), is then multiplied by the Census
percentage calculated and allocated to the various CJLS offices. A percentage of total
office location revenue versus total CJLS revenue is calculated to determine what
percentage of the office expenses will be allocated as administrative costs. All grants
that are received for specific offices or programs are directly allocated to the specific
office or program. We tested to ensure the percentages were reasonable and the
percentages were being applied as prescribed. While the cost allocation process
appears to be reasonable and our testing confirmed the grantee is following these
processes, documented procedures relating to cost allocation were not adequate. The
procedures need to provide sufficient details, as required by the LSC Accounting Guide,
fully describing how percentages are calculated to allocate costs over the various CJLS
grants. Without adequate process documentation, staff members may not be able to
allocate expenses on a consistent basis across the grants.

Without detailed written procedures, there could be a lack of transparency and
consistency in the application of the methodology especially in cases of staff turnover.
Approved documented policies and procedures represent management’s intentions on
how processes are to be handled.

Recommendations: The Executive Director should:

   Recommendation 1: develop written policies for derivative income that ensure such
   income is properly recorded and allocated to funding sources;

   Recommendation 2: document the current practices over the use of credit cards into
   the grantee’s Administrative Procedures Manual;

   Recommendation 3: ensure the cost allocation processes are fully documented in
   writing.

CONTRACTING

The grantee’s current practices involving soliciting and awarding contracts were not in
accordance with the Fundamental Criteria. In addition, there are no written policies and
procedures for contracts and consultants assigning responsibilities and describing the

                                           4
practices being followed. Some of the major items that need to be included in
documented processes are:

      Specific procedures for various types of contracts;
      Competition requirements;
      Approval authorities and dollar thresholds for approvals;
      Documentation requirements to support the contracting decision such as sole
       source justifications and contract modifications; and
      Contract oversight responsibilities.

Without formal written policies and procedures describing the processes, there is no
assurance that staff will follow a consistent approach.

We identified ten written contracts/agreements maintained by CJLS. We reviewed
seven of these contracts to verify the contracts were on file, adequate procedures were
used to secure the contracts, and confirmed payments made to the vendors were
comparable to the contractual amounts. Several of the agreements were continuing
agreements entered into during prior periods. Payments made to the contracts were in
accordance with the agreements. However, we noted there was no supporting
documentation justifying the process used to obtain the two sole sourced contracts
identified during testing. The Accounting Guide, under Chapter 3-5.16, notes a key
element that should be included by the grantee when establishing whether a contracting
policy is documenting the contracting process, rationale and decisions made. Proper
documentation helps ensure that the approved contract has followed all established
procedures. The purpose of this sole source documentation is to justify that a
competitive procurement is impractical because only one product or service can meet
the specific need. It is not to be utilized to circumvent normal purchasing procedure, nor
for a price-based justification.

In addition, while all contracts located during our visit were filed, not all contracts and
supporting documentation for the contracts had been centrally filed in one location. The
lack of a centralized filing system could result in lost or misplaced contracting
information as well as nonconformity with the Fundamental Criteria. The process used
for each contract action should be fully documented and the documentation maintained
in a central file. Any deviation from the approved contracting process should be fully
documented, approved and maintained in the contract file.

Recommendations: The Executive Director should:

Recommendation 4: formally document procedures for awarding and modifying
contracts and consulting agreements in accordance with the Fundamental Criteria.
These written policies and procedures should describe the contracting process including
the need to seek competition under certain circumstances and ensure that all
modifications are in writing and approved.



                                            5
Recommendation 5: familiarize staff with the LSC Accounting Guide contract criteria to
ensure that all requirements are adhered to, including documentation of the contracting
process, rationale and decisions made.

Recommendation 6: ensure that a centralized contract filing system is created whereby
each contract file relates to a specific contract and contains all pertinent documents
related to the solicitation, receipt and evaluation of bids and the award of the contract.

FIXED ASSETS

CJLS fixed assets written policies and procedures were mostly in accordance with the
Fundamental Criteria, however, the policies lacked the recordkeeping requirements
contained in the Accounting Guide. During our review, we learned that much of CJLS’s
equipment is purchased and tagged by the state. However, the fixed assets purchased
by CJLS were not tagged at the time of our review.

According to grantee management, physical inventories are done by CJLS every two
years. The most recent physical inventory was performed in June/July 2012. The
physical inventory sheet received was created by a grantee staff member as the prior
individual that conducted physical inventories was no longer with the organization.
There were no tickmarks or identifiers to show changes from prior years, but we did
walk through the physical inventory process. The physical inventory practices in place
follow the grantee’s written policies and are deemed reasonable.

CJLS does not issue cell phones, blackberries or laptops. All laptops used by CJLS
staff are issued, tracked, and accounted for by Legal Services of New Jersey (LSNJ) as
they were purchased and donated by LSNJ. LSNJ tags all laptops.

The Accounting Guide identifies several categories that should be included in the
grantee’s property records. During our review, we noted that the following columns are
identified on the grantee’s property records but are not complete:

      Model and serial numbers;
      Date of acquisition;
      Number of check;
      Costs of property/salvage value; and
      Inventory control numbers.

We also noted the following information was not included on CJLS’s property record:

      Useful life;
      Depreciation method;
      Source of funds;
      Condition of the property; and
      Physical inventory date.


                                            6
The failure to properly tag assets may lead to inefficiency in properly tracking and
accounting for fixed assets. Failure to maintain adequate property records may result in
the inability to fully account for fixed asset purchases while also not supporting
depreciation methods and property asset balances.

Properly accounting for fixed assets enables the grantee to safeguard assets, fully
account for the assets purchased, and support reconciliations so that property asset
balances are accurate.

Recommendations: The Executive Director should:

   Recommendation 7: ensure that all fixed assets are properly tagged;

   Recommendation 8: update the property records to include all recordkeeping fields
   required by the Fundamental Criteria and ensure that all required information in the
   fields is maintained.

SUPPORTING DOCUMENTATION

CJLS provided credit card supporting documentation, but the documentation was not
maintained in one location and some electronic receipts were not included in the credit
card statements file used as support for paying the credit card statement charges.
Documentation supporting all disbursements shall be contained in the files according to
the Accounting Guide. Inadequate supporting documentation for credit card charges
could result in unauthorized disbursements.
The lack of a centralized filing system could result in:
    Less control and security over credit card documentation;
    Lost or misplaced supporting documentation;
    Inconsistencies and nonconformity in the credit card processes; and
    Unnecessary time spent locating documentation.

Recommendation 9: The Executive Director should ensure that all supporting
documentation for credit card charges is included with each credit card statement prior
to payment and maintained in one central location.




                                           7
          SUMMARY OF GRANTEE MANAGEMENT COMMENTS
Grantee management agreed in principle with all the findings and recommendations
contained in the report. Grantee management is developing written policies for
derivative income, has updated and added written policies for credit card use, and
contracting processes to their Administrative Manual. The contracting procedures
include when to seek competition and to ensure that all modifications are in writing and
approved. Grantee management is also adding a written description of its policies for
derivative income and the cost allocation process to their Administrative Manual. Once
the Administrative Manual is complete, management plans to familiarize staff with the
changes. Grantee management has reviewed all administrative files and organized the
filing system for contracts and credit card purchases. Grantee management has
completed an updated and more complete inventory of fixed assets, tagging all assets
and adding missing information on their inventory list.


     OIG EVALUATION OF GRANTEE MANAGEMENT COMMENTS
The OIG has reviewed the grantee’s comments on the draft report findings and
recommendations and has determined that the actions CJLS has planned are
responsive to the recommendations. Recommendations 1, 3, and 5 will remain open
until the OIG has been notified in writing that the applicable written policies have been
updated and added to the Administrative Manual and that all meetings and training to
discuss adherence with accounting policies and procedures has been completed with
CJLS staff. The grantee has fully addressed recommendations 2 and 4 by adding credit
card and cost allocations procedures to the Administrative Manual. The grantee has
fully addressed recommendations 6 through 9 by organizing the contracts filing system,
tagging all assets, adding missing information to the inventory list, and filing all
adequate supporting documentation for credit cards in a central location.




                                           8
                                                                       APPENDIX I

                         SCOPE AND METHODOLOGY
To accomplish the audit objective, the OIG identified, reviewed, evaluated and tested
internal controls related to the following activities:

      Cash disbursements;
      Contracting;
      Credit cards;
      Property and Equipment;
      Internal Management Reporting and Budgeting; and
      Cost Allocation.

In addition, we reviewed controls over derivative income and client trust fund
accounting. Controls over derivative income were reviewed to determine whether
income was properly recorded and allocated. Controls over client trust fund accounting
were reviewed but not tested.

To obtain an understanding of the internal controls in place over the areas under review;
grantee policies and procedures were reviewed including manuals, guidelines,
memoranda, and directives, setting forth current grantee practices. Grantee officials
were interviewed to obtain an understanding of the internal control framework, and
management and staff were interviewed as to their knowledge and understanding of the
processes in place. To review and evaluate internal controls, the grantee’s internal
control system and processes were compared to the guidelines in the Fundamental
Criteria of an Accounting and Financial Reporting System (Fundamental Criteria)
contained in the LSC Accounting Guide. This review was limited in scope and not
sufficient for expressing an opinion on the entire system of grantee internal controls
over financial operations.

We assessed the reliability of computer generated data provided by the grantee by
reviewing source documentation for the entries selected for review. We determined that
the data were sufficiently reliable for the purposes of this report.

To test for the appropriateness of expenditures and the existence of adequate
supporting documentation, disbursements from a judgmentally selected sample of
employee and vendor files were reviewed. The sample was taken from the period
January 1, 2013 through November 30, 2013, and represented approximately
11.3 percent of the $481,790 disbursed for expenses other than payroll, benefits and
depreciation. The sample consisted of 92 transactions (7 voided transactions) totaling

                                          I-1
$53,349. To assess the appropriateness of expenditures, we reviewed invoices and
vendor lists, and then traced the expenditures to the general ledger.        The
appropriateness of those expenditures was evaluated on the basis of the grant
agreements, applicable laws and regulations, and LSC policy guidance.

To evaluate and test internal controls over the contracting process, credit card use,
internal management reporting and budgeting, and property and equipment, we
interviewed appropriate program personnel, examined related policies and procedures,
and selected specific transactions to review for adequacy.

To evaluate the adequacy of the cost allocation process, we discussed the cost
allocation process for 2013 with grantee management and requested, for review, the
grantee’s written cost allocation policies and procedures as required by the LSC
Accounting Guide. We recalculated the cost allocation amounts for 2013 using the
information provided by the grantee.

Controls over derivative income were reviewed by examining current grantee practices
and reviewing the written policies contained in the grantee’s Accounting Manual. To
evaluate controls over client trust fund accounting, we interviewed appropriate program
personnel and examined related policies and procedures.

The on-site fieldwork was conducted from December 9 through December 13, 2013.
Our work was conducted at the grantee’s central administrative office in
New Brunswick, NJ and at LSC headquarters in Washington, DC.               Documents
reviewed pertained to the period January 1, 2013 through October 31, 2013.

This audit was conducted in accordance with generally accepted government auditing
standards. Those standards require that the audit be planned and performed to obtain
sufficient, appropriate evidence to provide a reasonable basis for the findings and
conclusions based on the audit objectives. The OIG believes the evidence obtained
provides a reasonable basis for the findings and conclusions based on the audit
objectives.




                                         I-2
                                                                                              APPENDIX II

                         GRANTEE MANAGEMENT COMMENTS



                                             Central Jersey
                                        L.. .·u,,, :!)ervlC:e:•. Inc.


                                                                                     =
            'Judd

A'red .,.
Director of Litfgat'cn



 Aprill7.2014

 John Secba
 Office of the Inspector General
       Services Corpol"J:tion


 Rc: Audit of OUt Internal Controls

 Dear Mr, Seeba,

 "fhank you for the draft report from your audit of OUT internal controls, "1 he audit came at it very good
 time sioce I have recently takt:n the reins as Executive Director, alIa th(~ audi t was an opportunity to make
 sure 1 understand the requirements of the Auditing Guide, and that we tirc ((joJlowing them correctly.
 Since the exit iotervk'W we have been working on me recommended actions that were suggested by your
 staff.

 Spccifi"ally as to the WrlUeti recommendations:
    I, We arc                 v.,Tiuen policies for derhatjve income that ensures such income is properly
        record<:d and              to the correct funding sources. \Ve are             that policy to our
        AdminisiTath'e k1anual.
    2. v..'e have added a                  of nul' credit card use            to our Administrative ManuaL
    3, We are                                                              to our Administrative Manual
    4, We have            more            regarding our C<Jutrnclingproccdures 10 our Administrative :vianuaL
        including whcn to seek competition and                  SUTe that all moditlcatious are in writing and
        approved.
    5, When we have completed the updtltcs to our Administrativ!.t \hnual we willl'amiIiarize thc ~iafT
        with the            including the documentation that i~ required for contracting services and the
        tlrilc:tia for        competitive quoteS,
    6. We have                  reviewed all the adminislrative files and                the filing s:ystem, Each
        clmtract 1Ile no\-" cOl1tains all             documents related to the s.oUcitatinn, receipt and evaluation
        of bids and the award of the contract.
    7, We have cotnilletcd an u~~;~l~t~lU~':~d more corcpictc inventory of our fixed assets, tagging aU assets
        and adding       mlbSing i                 that We have to thc inventory list.




'Ie
                             SeMno Mercer, Middlesex and Union (ounties




                                                   II - 1
    "-   _....u..~._




    •.
        - ....... . . . . .
         ,,·._~ ~ _      ••_, 1..     ...:._.-~
         ..~--"............. ,..... ...      '. ~
                                                             ....   ~"'--'_     .......... ... "
                                                    .. 0;." _'" .-" .... _ ........... .-..


 .,.... ""'.•
 I " '" I ,_ ,' "'""-d .... .. ,,' ,.. _, ..·" .....i_ .,,"'" .....-... ""   .' ''' '. ,... .   ,~   I.. . -   ""r
· .',/Cr--,
     '' ' - .
S~l ~-1":)




                                                    II - 2
